No. 20-5089

In the Supreme Court of the United States
WILLIAM KIRKPATRICK, JR., Petitioner,
v.
KEVIN CHAPPELL, Respondent.

CERTIFICATE OF SERVICE BY MAIL
I, A. Scott Hayward, Deputy Attorney General, a member of the Bar of this Court
hereby certify that on September 10, 2020, a copy of the BRIEF IN OPPOSITION in
the above-entitled case was mailed, first class postage prepaid to:
Patricia A. Young, Deputy Federal Public Defender
Federal Public Defender's Office - Los Angeles
321 East 2nd Street
Los Angeles, CA 90012-4202
counsel for petitioner
I further certify that all parties required to be served have been served.

/s/ A. Scott Hayward
A. SCOTT HAYWARD, Deputy Attorney General
Office of the Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213) 269-6190
Counsel for Respondent

ASH
LA2020601598
63546079.docx

